  September 27, 2006




Financial Management
Financial Management of Hurricane
Katrina Relief Efforts at Selected
DoD Components
(D-2006-118)




                  Department of Defense
                 Office of Inspector General

                                   Constitution of
                                  the United States

     A Regular Statement of Account of the Receipts and Expenditures of all public
     Money shall be published from time to time.
                                                             Article I, Section 9
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Secondary Reports Distribution Unit, Audit Followup and Technical Support at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact Audit Followup and
  Technical Support at (703) 604-8940 (DSN 664-8940) or fax (703) 604-8932.
  Ideas and requests can also be mailed to:

                    ODIG-AUD (ATTN: AFTS Audit Suggestions)
                      Department of Defense Inspector General
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704




Acronyms

ASD(HD)               Assistant Secretary of Defense for Homeland Defense
DERF                  Defense Emergency Response Fund
DESC                  Defense Energy Support Center
DFAS                  Defense Finance and Accounting Service
DISA                  Defense Information Systems Agency
DLA                   Defense Logistics Agency
DRMS                  Defense Reutilization and Marketing Service
DSCP                  Defense Supply Center Philadelphia
FEMA                  Federal Emergency Management Agency
FMR                   Federal Management Regulation
FM-Katrina            Financial Manager, Katrina Task Force
GAO                   Government Accountability Office
NGA                   National Geospatial-Intelligence Agency
USD(C/CFO)            Under Secretary of Defense (Comptroller)/Chief Financial Officer
USNORTHCOM            United States Northern Command
USSOCOM               United States Special Operations Command
USTRANSCOM            United States Transportation Command
                             INSPECTOR GENERAL
                            DEPARTMENT OF DEFENSE
                             400 ARMY NAVY DRIVE
                        ARLINGTON, VIRGINIA 22202-4704




                                                                    September 27,2006


MEMORANDUM FOR UNDER SECRETARY OF DEFENSE (COMPTROLLER)
                 /CHIEF FINANCIAL OFFICER
               ASSISTANT SECRETARY OF THE AIR FORCE
                 (FINANCIAL MANAGEMENT AND COMPTROLLER)
               COMMANDER, U.S. NORTHERN COMMAND
SUBJECT: Report on Financial Management of Humcane Katrina Relief Efforts at
         Selected DoD Components (Report No. D-2006-118)

        We are providing this report for your information and use. We performed this
audit in support of Public Law 109-62. We considered management comments on the
draft report when preparing this report.
       The Under Secretary of Defense (Comptroller/Chief Financial Officer) and the
Commander, U.S. Northern Command comments conformed to the requirements of DoD
Directive 7650.3; therefore, additional comments are not required. As a result of
management comments, we revised Recommendation 2 to clarify our intentions.
       We appreciate the courtesies extended to the staff. Questions should be directed
to Ms. Lorin T. Pfeil at (703) 325-5568 (DSN 221-5568) or Mr. Henry Y. Adu at
(703) 325-6008 (DSN 22 1-6008). See Appendix D for the report distribution. The team
members are listed inside the back cover.
                              By direction of the Deputy Inspector General for Auditing:




                                     Assistant Inspector General
                                  Defense Financial Auditing Service
               Department of Defense Office of Inspector General
Report No. D2006-118                                                September 27, 2006
  (Project No. D2006-D000FE-0010.000)

        Financial Management of Hurricane Katrina Relief Efforts
                     at Selected DoD Components

                                Executive Summary

Who Should Read This Report and Why? DoD financial managers and personnel
responsible for the accounting and reporting of reimbursable funds to support national
emergencies should read this report. The report discusses the accounting and reporting of
Federal Emergency Management Agency (FEMA) reimbursable funding authority to
support Hurricane Katrina relief efforts at selected DoD Components.

Background. On August 29, 2005, Hurricane Katrina made landfall on the U.S. Gulf
Coast causing severe damage and loss of life in Alabama, Louisiana, and Mississippi.
The President declared the affected locations disaster areas, making them eligible to
receive Federal funding. FEMA, the primary Federal agency responsible for providing
emergency relief in the United States, gave reimbursable funding authority to DoD to
provide support and other humanitarian assistance to the victims of the hurricane. In a
September 15, 2005, letter to the Secretary of Homeland Security, the House Government
Reform Committee and its Subcommittee on Financial Management (now the
Subcommittee on Government Management, Finance, and Accountability) tasked the
Secretary to coordinate with the DoD Office of Inspector General to audit and provide
oversight to ensure that FEMA funds were used for their intended purposes. This report
is one in a series discussing the use of DoD resources to support the Hurricane Katrina
relief efforts.

Results. We performed this audit to determine whether obligations and expenditures
related to the Hurricane Katrina relief efforts at selected DoD Components were executed
efficiently, timely, and in accordance with applicable laws and regulations. DoD
Components performed their FEMA mission assignments for the Hurricane Katrina relief
efforts in a timely manner. DoD accounting for the obligations and expenditures
complied with applicable laws. However, the Under Secretary of Defense
(Comptroller)/Chief Financial Officer issued reimbursement guidance that was in conflict
with existing DoD Directives and the DoD Financial Management Regulation. DoD
Components could not readily reconcile obligations to individual FEMA mission
assignments or funding documents, and DoD may have excess unobligated reimbursable
funding authority related to the hurricane relief efforts that DoD needs to inform FEMA
to de-obligate. Also, DoD did not bill FEMA in a timely manner, and the daily and
monthly cost reports prepared by the DoD Components did not provide accurate data to
DoD decision makers. (See the Finding section of the report for the detailed
recommendations.)

Management Comments and Audit Response. The Acting Deputy Chief Financial
Officer concurred with Recommendations 1 and 3, and partially concurred with
Recommendations 2 and 4. The Commander, U.S. Northern Command concurred with
the findings and recommendations of the report. No additional comments are required.
As a result of management comments, we revised Recommendation 2 to include the word
“domestic” to clarify our intentions. See the Finding section of the report for the report
for a discussion of management comments and the Management Comments section of the
report for the complete text of the comments.




                                            ii
Table of Contents

Executive Summary                                                       i

Background                                                              1

Objective                                                               3

Finding
     Accounting for Federal Emergency Management Agency Mission
         Assignments                                                    4

Appendixes
    A. Scope and Methodology                                           22
    B. Flow and Process of FEMA Mission Assignments                    27
    C. FEMA Mission Assignments and Other Funding Documents
          Reviewed                                                     28
    D. Report Distribution                                             31

Management Comments
    Under Secretary of Defense (Comptroller/Chief Financial Officer)   33
    United States Northern Command                                     36
Background
           On August 29, 2005, Hurricane Katrina made landfall on the U.S. Gulf Coast
           causing major damage and loss of life in Alabama, Louisiana, and Mississippi.
           The President declared the affected locations disaster areas, making them eligible
           to receive Federal funding. The Federal Emergency Management Agency
           (FEMA), the primary Federal agency responsible for providing emergency relief
           in the United States, gave reimbursable funding authority to DoD to perform
           specific mission assignments1 to provide relief and other humanitarian assistance
           to the victims of the hurricane. Part of the FEMA reimbursable funding authority
           DoD received for Hurricane Katrina was also used to support Hurricane Rita and
           Hurricane Wilma relief efforts. We have used the term Hurricane Katrina relief
           efforts to describe the DoD relief efforts for all three hurricanes. This report is
           one in a series discussing the use of DoD resources to support the Hurricane
           Katrina relief efforts.

           This audit was performed in support of Public Law 109-62, “Second Emergency
           Supplemental Appropriations Act to Meet Immediate Needs Arising from the
           Consequences of Hurricane Katrina, 2005,” September 8, 2005. The law requires
           the Inspector General, Department of Homeland Security, to audit and investigate
           funds expended on Hurricane Katrina response and recovery activities. In a letter
           to the Secretary of Homeland Security on September 15, 2005, the House
           Government Reform Committee and its Subcommittee on Financial Management
           (now the Subcommittee on Government Management, Finance, and
           Accountability) tasked the Secretary to coordinate with the DoD Office of
           Inspector General to increase its auditing and investigative capabilities to ensure
           that the funds were used for their intended purposes. The following DoD offices
           were involved in the financial management of the DoD Hurricane Katrina relief
           efforts.

           Under Secretary of Defense (Comptroller)/Chief Financial Officer. The
           Under Secretary of Defense (Comptroller)/Chief Financial Officer
           (USD[C/CFO]) issued temporary fiscal guidance for the control, reimbursement,
           and reporting of DoD funds expended for Hurricane Katrina relief efforts. The
           USD(C/CFO) also defined the roles and responsibilities of key DoD Components
           involved in the DoD processing and management of FEMA reimbursable funding
           authority and execution of mission assignments to support the hurricane relief
           efforts.

           Assistant Secretary of Defense for Homeland Defense. On March 25, 2003,
           the Deputy Secretary of Defense appointed the first Assistant Secretary of
           Defense for Homeland Defense (ASD[HD]). Effective on that date, the Deputy
           Secretary of Defense terminated the assignments of the Secretary of the Army as
           DoD Executive Agent for Military Support to Civil Authorities as described in
           DoD regulations. The Deputy Secretary of Defense delegated the duties and
           authorities of the DoD Executive Agent to the ASD(HD). The Deputy Secretary
1
    Mission assignment is used in this report to describe funding documents that FEMA provided to DoD that
    described a particular assistance or tasking that DoD performed. See Appendix C for the types of
    funding documents reviewed.



                                                     1
           of Defense tasked the ASD(HD), through the Under Secretary of Defense for
           Policy, to update DoD Directives and other related issuances on Military
           assistance to civil authorities to reflect the changes resulting from the
           establishment of the Office of the ASD(HD).

           Assistant Secretary of the Air Force (Financial Management). On
           September 20, 2005, the USD(C/CFO) designated the Assistant Secretary of the
           Air Force (Financial Management and Comptroller) as the Financial Manager
           (FM-Katrina) for the Hurricane Katrina relief efforts. The FM-Katrina was
           responsible for the financial management oversight and the financial flow of the
           reimbursable funding process for the hurricane relief efforts. The FM-Katrina
           also maintained the FM-Katrina FEMA Mission Assignment Tracker2 (the
           Tracker). According to the USD(C/CFO) “Reimbursement Guidance for
           Hurricane Relief Efforts,” September 20, 2005, the FM-Katrina was responsible
           for issuing reimbursable authority against the blanket mission assignments3 to
           DoD Components that executed requested FEMA mission assignments and was
           responsible for reporting on the relief efforts to senior DoD management.

           Joint Chiefs of Staff. The Joint Chiefs of Staff coordinated FEMA mission
           assignments and submitted them to the Secretary of Defense for approval. The
           Joint Chiefs of Staff also issued Deployment Orders or Execution Orders with
           taskings to DoD Components.

           U.S. Northern Command. The U.S. Northern Command (USNORTHCOM)
           began operations in 2002 to provide and control DoD homeland defense efforts
           and coordinate DoD support for civil authorities. The USNORTHCOM civil
           support mission includes disaster relief operations resulting from manmade or
           natural disasters such as fires, hurricanes, floods, and earthquakes.
           USNORTHCOM was designated as the Unified Command responsible for Joint
           Task Force Katrina. USNORTHCOM managed the DoD hurricane relief efforts
           and, based on the Deployment or Execution Orders received from the Joint Chiefs
           of Staff, issued task orders or directions to DoD Components directing the
           designated Components to perform the assistance FEMA requested.
           USNORTHCOM also maintained a Hurricane Katrina Website4 (Katrina
           Website), which provided a list of FEMA mission assignments to DoD.

           Defense Finance and Accounting Service. The Defense Finance and
           Accounting Service (DFAS) received and consolidated requests for FEMA
           reimbursements for the DoD Components. DFAS also received and consolidated
           DoD Components daily and monthly reports and submitted the reports to the
           USD(C) (Program/Budget).

2
    The Tracker is the database maintained by the FM-Katrina to track the initial cost estimates, funding,
    obligations, and billing of FEMA reimbursable transactions that supported the relief efforts.
3
    According to USD(C/CFO) reimbursement guidance dated September 20, 2005, blanket mission
    assignments are FEMA mission assignment documents that describe a requested tasking with
    reimbursable funding authority and are not directed to any one specific DoD Component.
4
    The website is maintained by USNORTHCOM and contains FEMA mission assignments and other
    Hurricane Katrina information: https://www.noradnorthcom.mil/J3/operations/severeweather/wx7/.




                                                        2
Objective
    Our overall audit objective was to determine whether DoD obligations and
    expenditures related to the Hurricane Katrina relief effort were timely and
    efficiently executed in accordance with applicable laws and regulations. See
    Appendix A for a discussion of the scope and methodology and prior coverage
    related to the objective.


Managers’ Internal Control Program
    A review of the managers’ internal control program was not an announced object
    of the audit. Therefore, we did not review the managers’ internal control
    program.




                                       3
           Accounting for Federal Emergency
           Management Agency Mission
           Assignments
           DoD Components performed their FEMA mission assignments for the
           Hurricane Katrina relief efforts in a timely manner. DoD accounting for
           obligations and expenditures related to the hurricane relief efforts
           complied with applicable laws. However, the Under Secretary of Defense
           (Comptroller)/Chief Financial Officer issued reimbursement guidance that
           was in conflict with existing DoD Directives and the Financial
           Management Regulation (FMR). DoD accounting for FEMA mission
           assignments was not effectively managed, reimbursable billings to FEMA
           were not timely, and obligations could not be readily reconciled to FEMA
           mission assignments. DoD also may have excess unobligated
           reimbursable funding authority related to the Hurricane Katrina relief
           efforts that DoD needs to inform FEMA to de-obligate. In addition, DoD
           Components did not always provide accurate and timely cost reports to
           decision makers as required by the reimbursement guidance.

Completion of FEMA Mission Assignments
   All the DoD Components we visited performed the FEMA-requested mission
   assignments for the Hurricane Katrina relief efforts in a timely manner. For
   example, the Defense Information Systems Agency (DISA) provided
   communications support to law enforcement agencies in the affected areas. The
   Defense Logistics Agency (DLA) provided subsistence, medical supplies, and
   generators to the victims of the hurricane. The National Geospatial-Intelligence
   Agency (NGA) provided aerial surveillance of the affected areas. The U.S. Special
   Operations Command (USSOCOM) and the U.S. Transportation Command
   (USTRANSCOM) also provided services towards the hurricane relief efforts.
   Each of these DoD Components was able to provide documentation, such as
   invoices, to support the amounts billed to FEMA, which helped to ensure the
   accuracy of the billings. The supporting documentation also provided evidence
   that the Components processed obligations and expenditures related to their
   mission assignments in a timely manner. The Tracker and the Katrina Website
   provided a database of FEMA blanket and specific mission assignments to DoD
   and served as a source of information for the Components involved in the DoD
   hurricane relief efforts.

Guidance for DoD Emergency Support
    Public Law 101-165. The Department of Defense Appropriations Act of 1990,
    Public Law 101-165, November 21, 1989, established the Defense Emergency
    Response Fund (DERF). DERF enables DoD to use its resources to provide
    assistance to Federal Departments and agencies and to State and local
    governments for responding to natural or manmade disasters when requested.


                                       4
The Secretary of Defense may authorize the use of DERF if the Secretary
determines that immediate action is necessary before DoD receives a request for
assistance. DERF was initially capitalized at $100 million.

Public Law 106-390. The “Robert T. Stafford Disaster Relief and Emergency
Assistance Act,” Public Law 106-390, October 30, 2000, (the Stafford Act) as
amended, provides for the use of Federal agencies’ personnel, at the request of the
President, to support emergency relief efforts at designated major disaster areas.
The law also authorizes reimbursement to Federal agencies for expenditures
incurred in performing emergency support services.

DoD Policies. Several DoD directives, regulations, and manuals prescribe
policies and procedures and assign responsibilities for DoD to assist in disaster
relief and emergencies. The USD(C/CFO) issued additional guidance to DoD
Components for recording and reporting DoD assistance to support the Hurricane
Katrina relief efforts.

       DoD Directive. DoD Directive 3025.1, “Military Support to Civil
Authorities,” January 15, 1993, provides policy and assigns responsibilities by
which DoD responds to major disasters and emergencies in accordance with the
Stafford Act. The Directive requires DoD Components to comply with legal and
accounting requirements when using DoD resources to support civil authorities to
ensure cost reimbursement under the Stafford Act, Public Law 101-165, or other
applicable laws. The Directive also requires the USD(C/CFO), in conjunction
with the DoD Executive Agent, to provide accounting and other procedures
necessary to manage DoD expenditures for the relief efforts using DERF.

        DoD Manual. DoD 3025.1-M, “Manual for Civil Emergencies,”
June 1994, provides additional fiscal guidance for DoD funding, accounting, and
reimbursements for disaster relief efforts using DERF. According to the manual,
“the DoD Office of the Deputy Comptroller (Program and Budget) controls the
use of the fund.” The Deputy Comptroller (Program and Budget) is also
responsible for preparing and issuing funding authorizations from DERF.
        DoD Financial Management Regulation. DoD FMR, “Defense
Emergency Response Fund,” volume 12, chapter 6, September 1996, establishes
DoD policy and procedures that govern the use of DERF. DERF was established
to provide obligational authority to DoD Components “upon a determination by
the Secretary of Defense that immediate action is necessary in response to a
natural or manmade disaster; and in anticipation of reimbursable orders from
other Federal Departments and agencies and from State and local governments.”
DERF centralizes the DoD financial accounting of support for responding to
disaster assistance. The FMR requires the DoD Executive Agent to commit funds
from the DERF in anticipation of reimbursement to the fund. The DoD Executive
Agent then issues task orders to DoD Components who will obligate their own
funds for the tasking, perform the tasking, and bill the DERF for costs incurred.
The DFAS then pays the performing DoD Components from DERF and requests
reimbursement from the benefiting agency. The DoD Executive Agent is
required to inform the Deputy Comptroller (Program/Budget) of the need for
additional appropriation, if necessary, to sustain DERF.



                                     5
                   DoD Hurricane Katrina Reimbursement Guidance. The USD(C/CFO)
           memorandum “Reimbursement Guidance for Hurricane Katrina Relief Efforts,”
           September 20, 2005, provided guidance to DoD Components performing missions
           FEMA requested to “ensure an accurate accounting of costs incurred is
           maintained and timely reimbursement is requested from FEMA.” The
           USD(C/CFO) appointed the Assistant Secretary of the Air Force (Financial
           Management and Comptroller) as the Financial Manager (FM-Katrina) for
           reimbursable funding for the DoD hurricane-related relief operations. The
           FM-Katrina was also responsible for the financial management oversight of
           FEMA-funded reimbursable assignments and the reports to DoD senior
           management and to FEMA. The memorandum also stated that each DoD
           Component that accepted a mission assignment from FEMA was responsible for
           maintaining all the documentation necessary for requesting reimbursements.
           Partial or final requests for reimbursement were to be submitted to FEMA no later
           than 90 days after the completion or termination of an assignment.

                  Internal Controls. On September 20, 2005, in the memorandum
           “Internal Controls for Hurricane Katrina Procurement and Spending,” the
           USD(C/CFO) requested DoD Components involved in hurricane relief efforts to
           provide the office with copies of their internal control plans to ensure that
           financial and acquisition controls were not compromised as DoD responded to
           hurricane relief efforts.

                   Reporting Hurricane Katrina Relief Costs. On September 23, 2005, the
           USD(C/CFO) issued a memorandum “Reporting of Hurricane Katrina Relief
           Costs,” which provided guidance for each DoD Component to “track and report
           costs, reimbursable and non-reimbursable, on both a daily and monthly basis.”
           The purpose of the reports was to capture both the DoD incremental cost
           associated with DoD supplemental funding5 and total costs associated with
           reimbursable work. DoD Components were to submit their daily and monthly
           reports to the DFAS Denver office for consolidation and reporting to the
           USD(C/CFO).

Compliance with Public Law, DoD Directives, and Regulations
           DoD accounting for the Hurricane Katrina relief efforts was in compliance with
           Public Law 101-165. However, the Under Secretary of Defense
           (Comptroller)/Chief Financial Officer issued reimbursement guidance that was in
           conflict with existing DoD Directives and the DoD FMR. Specifically, the
           USD(C/CFO) did not delegate the financial management oversight
           responsibilities to the ASD(HD).

5
    The daily and monthly cost reports included direct data on supplemental funding which DoD received
    under Public Law 109-61, “Emergency Supplemental Appropriations Act to Meet Immediate Needs
    Arising From the Consequences of Hurricane Katrina, 2005,” September 2, 2005, and Public Law 109-
    62, “Second Emergency Supplemental Appropriations Act to Meet Immediate Needs Arising From the
    Consequences of Hurricane Katrina, 2005,” September 8, 2005, and were not part of the FEMA
    reimbursable mission assignments.




                                                    6
            Public Law. DoD purposely did not use DERF, the centralized account
    established by Public Law 101-165, to record, process, and account for DoD’s
    Hurricane Katrina relief efforts. DERF was established by the public law to
    reimburse DoD appropriations for supplies and services provided “in anticipation
    of requests” for assistance after disasters. DERF was therefore established to be
    used prior to the receipt of reimbursable requests for assistance. In the Hurricane
    Katrina relief efforts, DoD support was provided in response to FEMA
    reimbursable requests and not in anticipation of requests. Not using DERF did
    not affect DoD’s response to the hurricane relief efforts.

            DoD Directives and FMR. The USD(C/CFO) Hurricane Katrina
    reimbursement guidance was in conflict with DoD Directives and FMR.
    ASD(HD), the Executive Agent for DoD Military Support to Civil Authorities,
    was not actively involved in the financial management of the DoD Hurricane
    Katrina relief efforts. This occurred because the USD(C/CFO) designated the
    FM-Katrina as the Financial Manager for the Hurricane Katrina relief efforts.
    Therefore, the FM-Katrina, rather than the ASD(HD), was responsible for the
    financial management oversight and the financial flow of the reimbursable
    funding process for the hurricane relief efforts. The U.S. Air Force is the
    Executive Agent for USNORTHCOM, which had the operational oversight of the
    hurricane relief efforts. USD(C/CFO) personnel stated that because the Air Force
    is the Executive Agent for USNORTHCOM, the USD(C/CFO) appointed the
    Assistant Secretary of the Air Force as the FM-Katrina. However, this action was
    not in compliance with the Deputy Secretary Defense appointment of ASD(HD)
    as the Executive Agent for DoD Military Support to Civil Authorities.


Management of FEMA Mission Assignments
    DoD did not have effective controls to manage the FEMA mission assignments
    and reimbursable funding authority it received. The FM-Katrina had the financial
    management oversight and USNORTHCOM had operational oversight of the
    DoD hurricane relief efforts. However, the FM-Katrina and USNORTHCOM
    initially were not aware of the total reimbursable authority provided to DoD. This
    condition occurred because they did not receive information regarding the
    reimbursable funding authority that FEMA provided directly to some DoD
    Components. Therefore, the FM-Katrina and USNORTHCOM could not provide
    financial and operational oversight of the direct mission assignments to the DoD
    Components, and USNORTHCOM did not list these mission assignments on the
    Katrina Website. The Katrina Website and the FM-Katrina maintained Tracker
    both listed the blanket and specific mission assignments that FEMA provided to
    DoD.

    Direct FEMA Mission Assignment and Tasking Orders. Although the
    FM-Katrina was responsible for the financial management oversight of the DoD
    hurricane relief efforts, it did not have the financial management oversight of
    FEMA reimbursable authority. FEMA provided reimbursable authority by means
    of direct mission assignments and tasking orders to DoD Components under the
    Economy Act of 1998. The Economy Act allows Federal agencies or units within
    agencies to place orders for goods and services with each other if it is in the best
    interest of the U.S. Government. The Components did not report their direct


                                         7
mission assignments and tasking orders to the FM-Katrina. These direct mission
assignments and tasking orders bypassed the DoD mission assignment approval
system and were not included in either the Katrina Website or the Tracker.
Specifically, FEMA provided direct mission assignment and tasking orders to
DLA and NGA. Therefore, the FM-Katrina and USNORTHCOM with financial
and operational responsibilities for the DoD relief efforts, respectively, were
initially not aware of these direct mission assignments and tasking orders. For
DoD to have full responsibility and oversight for support to FEMA, the Executive
Agent for DoD Military Support to Civil Authorities, who is responsible for the
use of DoD resources in major disaster assistance, should have financial and
operational oversight of the total DoD assistance program. All DoD Components
should inform the Executive Agent for DoD Military Support to Civil Authorities
anytime the Components receive a direct funding document or a mission
assignment for any DoD disaster assistance for which the Executive Agent has
responsibility.

Blanket and Specific Mission Assignments. FEMA submitted blanket and
specific mission assignments to the Joint Chiefs of Staff who, after approval by
the Secretary of Defense, assigned the operational task to USNORTHCOM.
USNORTHCOM issued tasking orders to the DoD Components directing the
designated Components to perform the FEMA requested tasks. The blanket
mission assignments were not addressed to specific DoD Components because the
taskings on these assignments were very broad. However, the specific mission
assignments were addressed to specific DoD Components. The USD(C/CFO)
reimbursement guidance defined blanket mission assignment as a “broad mission
statement and a dollar limit” and specific mission assignments as “requesting
specific tasks and a dollar limit.” USNORTHCOM did not always provide copies
of the blanket mission assignments to the DoD Components to enable the
Components to accurately bill FEMA for reimbursement. Also, the FM-Katrina
and USNORTHCOM did not ensure that DoD Components receiving blanket
mission assignments knew the limits of their obligation authority. Components’
personnel stated that they received the USNORTHCOM blanket mission
assignments without limitations on their obligation authority. We confirmed the
Components’ statements with a USNORTHCOM official. The Components
believed that their obligation authority was limited to the total amount on the
mission assignments and not to a portion of it. For the sites we visited, we did not
find examples of obligations exceeding the total FEMA reimbursable funding
authority.

Mission Assignments to DoD Components. The FM-Katrina and
USNORTHCOM could not tell us the exact number of mission assignments that
DoD received from FEMA. Based on the information in the USD(C/CFO)
reimbursement guidance and in the FM-Katrina Tracker, we considered a FEMA
reimbursable funding authority on any mission assignment that the FM-Katrina
and USNORTHCOM allocated to more than one DoD Component as a blanket
mission assignment and not a direct mission assignment. We visited various DoD
Components over the course of several months and we requested data on different
dates for each site. The dates stated in this audit report correlate with the dates of
our visits and reflect when we reviewed the data. The table below represents the
total dollar amounts that FEMA provided to DoD by mission assignment or
funding document that the Components used to bill FEMA. Multiple


                                      8
Components billed FEMA against the same mission assignment or funding
document. As shown in the table, only two Components have billed $4.2 million
against seven direct reimbursable authority valued at $6.8 million that FEMA
provided to DoD. DoD needs to inform FEMA to de-obligate about $2.6 million
of excess reimbursable funding authority in direct mission assignments. This is
part of the reimbursable funding authority that bypassed the DoD mission
assignment approval system. USD(C/CFO) officials indicated that they have
requested FEMA to de-obligate several million dollars in excess reimbursable
funding authority to DoD, but FEMA is yet to de-obligate the excess funding
authority. We did not confirm this information with FEMA.

             FEMA Mission Assignments (MAs) and Other Funding
                           Documents Reviewed
                                (in millions)

                                                          Total Number
                                                          of
                                        Total Amount      Components         Total Amount
                                        of FEMA           that Billed        Components
  Type of            Total Number       Reimbursable      Against the        Billed Against
  Reimbursable       Reimbursable       Funding           FEMA               FEMA
  Funding            Funding            Authority to      Reimbursable       Reimbursable
  Authority          Authority          DoD/DoD           Funding            Funding
  Reviewed           Reviewed           Component         Authority          Authority

  Blanket MAs               13            $1,368.5               5               $ 28.4

  Specific MAs              11                792.51             2                17.1

  Direct MAs                7                   6.8              2                 4.2

  Other                     11                265.82             1               260.8
  Funding
  Documents
  (Tasking
  Orders)

  Total                     42            $2,433.6              103             $310.5
  1
    Includes a canceled mission assignment that two Components billed against.
  2
    Includes a $5 million mission assignment that DLA received and allowed to expire.
  3
    Multiple Components billed FEMA against the same mission assignment or funding
  document.



The following provides a synopsis of additional problems associated with the
blanket, specific, and direct FEMA tasking and reimbursable funding authority
received or processed by the DoD Components. See Appendix B for the flow
and process of FEMA mission assignments and Appendix C for the FEMA
reimbursable funding documents reviewed.


                                          9
        DISA. As of January 19, 2006, DISA had obligated about $0.8 million
against three blanket mission assignments to provide command and control
structure, deploy emergency and rapid response teams, and provide
communication support to law enforcement in the areas affected by the hurricane.
According to DISA officials, USNORTHCOM did not give them any obligation
limitations for the mission assignments. As a result, we could not determine the
total amount of unused DISA reimbursable authority that needs to be returned to
FEMA.

        DLA. As of March 24, 2006, three DLA field activities had obligated
about $280 million against 15 FEMA mission assignments and other funding
documents. The Defense Supply Center, Philadelphia (DSCP) obligated about
$274 million to supply meals-ready-to-eat, medical supplies, blankets, cots, health
and comfort packs, fuel, and small generators. DSCP received nine tasking orders
for $224 million of the $274 million through the General Services Administration.
DLA did not report the tasking orders to the FM-Katrina. Therefore, the
FM-Katrina did not have the financial oversight of the $224 million. However,
the amount was reported on the FM-Katrina maintained Tracker. In addition, the
Defense Energy Support Center (DESC) obligated about $4.8 million to provide
bulk fuel to FEMA for evacuation, emergency repairs, personnel deployment, and
other relief efforts. The Defense Reutilization and Marketing Services (DRMS)
obligated about $819,000 for transportation costs. Both obligations were also
reported on the FM-Katrina maintained Tracker.

        NGA. As of January 24, 2006, NGA had obligated about $5.2 million
against seven blanket and direct mission assignments to provide imagery products
and contract support. NGA officials stated that USNORTHCOM did not give a
dollar limitation on the blanket mission assignments. As a result, we could not
determine the unused total NGA reimbursable authority that needs to be returned
to FEMA.

        USSOCOM. As of February 17, 2006, USSOCOM had obligated about
$1.7 million against two blanket mission assignments for Headquarters and three
Subordinate Commands for travel, flying hours, supplies, and overtime pay.
USSOCOM Headquarters officials stated that they did not receive any mission
assignments from FEMA or from USNORTHCOM. The officials stated that they
instructed the Subordinate Commands to search the Katrina Website to determine
which mission assignments closely described their completed tasking. The
Subordinate Commands were then instructed to seek reimbursement for
obligations from the mission assignments that were selected. Because
USSOCOM did not receive any mission assignment or a reimbursable authority
with dollar limitation, we could not determine the unused total USSOCOM
reimbursable authority that needs to be returned to FEMA.

        USTRANSCOM. As of April 13, 2006, USTRANSCOM had obligated
about $23 million against 18 blanket and specific mission assignments for the Air
Mobility Command. USTRANSCOM was the receiving and reporting agent and
acted as the supporting activity for Air Mobility Command and the Military
Sealift Command. Our review at USTRANSCOM was limited to the funding
provided to the Air Mobility Command. Officials at USTRANSCOM stated that
they did not receive any reimbursable authority with dollar limitation from FEMA


                                    10
or from USNORTHCOM for the Air Mobility Command. Instead, after
performing FEMA taskings, they researched the Katrina Website to determine
which FEMA mission assignments closely described their accomplished missions,
and, with the approval of the Joint Chiefs of Staff, they billed FEMA against
those mission assignments. Therefore, we could not determine the reimbursable
authority on the 18 blanket and specific mission assignments that needs to be
returned to FEMA.

Obligation Authority Controls. The FM-Katrina and USNORTHCOM did not
have adequate controls to ensure that the Components’ obligation authority did
not exceed the FEMA reimbursable funding authority provided by the mission
assignments. Also, the FM-Katrina and USNORTHCOM did not have adequate
controls to ensure that the DoD Components were billing FEMA for
reimbursements against the proper mission assignments. These conditions
occurred because USNORTHCOM provided blanket mission assignments to the
Components without dollar limitations. Only USSOCOM and USTRANSCOM
told us that they researched the Katrina Website for a mission assignment related
to the assignment they had executed prior to billing against that mission
assignment. By not providing obligation authority limitations to DoD
Components, the potential exists that the sum total for individual Components’
obligations might exceed the DoD obligation authority on a blanket mission
assignment. USNORTHCOM did not communicate the canceled mission
assignments to the DoD Components, and the Components did not research the
Katrina Website on the current status of the FEMA mission assignments. As a
result, the Components billed against canceled mission assignments.

Duplication of Efforts. The FM-Katrina and USNORTHCOM did not have
specific controls to prevent duplication of efforts or excess reimbursable funding
authority because they did not have overall oversight of the FEMA blanket,
specific, and direct mission assignments and tasking orders. During a major
disaster assistance, when the DoD Executive Agent has responsibility for the use
of DoD resources, financial responsibility, and oversight of the relief efforts, the
Executive Agent should have total financial oversight of reimbursable authority
provided to DoD for the relief efforts. DoD Components should inform the
Executive Agent of orders they receive under the Economy Act from other
Federal agencies.

Because DoD Components billed against canceled mission assignments and,
because FEMA used blanket, specific, and direct tasking and other funding
documents to provide reimbursable authority to DoD Components, DoD may
have a charge back from FEMA for billing against canceled and duplicate mission
assignments. For example,

   •   Mission Assignment 1603DR-LA-DoD-27. On September 5, 2005,
       FEMA issued mission assignment 1603DR-LA-DOD-27 in the amount of
       $4 million. On October 18, 2005, FEMA canceled and de-obligated the
       funding for this mission assignment. USTRANSCOM completed a
       tasking on September 6, 2005, billed FEMA $40,622 on October 17, 2005,
       and collected the amount from FEMA on October 21, 2005, against this
       mission assignment. DISA also completed assignments against this
       mission assignment that included travel and acquisition of high capacity


                                     11
    batteries. DISA completed its assignments between September 29, 2005,
    and January 27, 2006, billed FEMA between November 8, 2005, and
    March 1, 2006, and collected $102,391 against this mission assignment.
    DoD should negotiate with FEMA to determine the proper mission
    assignment to the DISA cost.

•   Mission Assignment 1603DR-LA-DoD-23. FEMA issued mission
    assignment 1603DR-LA-DOD-23 on September 5, 2005, in the amount of
    $750 million; on September 6, 2005, FEMA canceled and de-obligated the
    funding for this mission assignment. FEMA replaced the canceled
    mission assignment with 24 specific mission assignments. In both
    October and November 2005, DSCP billed and collected a total amount of
    about $3.9 million from this canceled mission assignment. DoD should
    negotiate with FEMA to determine the proper mission assignment to the
    DLA cost and excess reimbursable funding authority on the replacement
    mission assignment.

•   Mission Assignment 1603DR-LA-DoD-19. On September 3, 2005,
    FEMA issued mission assignment 1603DR-LA-DOD-19 in the amount of
    $5 million and, on September 4, 2005, FEMA canceled and de-obligated
    the funding for this mission assignment. In December 2005 and again in
    February 2006, DRMS billed and collected a total of about $178,000
    against this canceled mission assignment. DoD should negotiate with
    FEMA to determine the proper mission assignment to the DLA cost and
    excess reimbursable funding authority on the replacement mission
    assignment.

•   Mission Assignment 1604DR-MS-DoD-19. USNORTHCOM provided
    FEMA blanket mission assignment 1604DR-MS-D0D-19,
    September 3, 2005, in the amount of $1 billion to DLA to “provide
    planning and execution for transportation and distribution of ice, water,
    food and medical supplies in support of the hurricane disaster relief efforts
    in Louisiana and Mississippi.” Then, on September 24, 2005, FEMA
    provided a direct tasking order (3261EM-TX-DoD-14) valued at
    $6 million to DSCP, for the supply of food and health and comfort packets
    in support of Hurricane Rita. One of the three DSCP directorates
    performing the tasking requested its own tasking order from FEMA. On
    December 19, 2005, FEMA amended tasking order (HSFEHQ-06-X-
    0102) to about $36.9 million and provided the tasking order to this
    directorate to provide food, water, and health and comfort packs for
    Hurricane Katrina victims. FEMA did not adjust the amounts on the
    original blanket mission assignment and the first tasking order. The two
    tasking orders may have duplicated the assignment and funding on the
    initial blanket mission assignment and, therefore, FEMA may have
    unnecessarily provided excess reimbursable funding authority to DoD of
    about $42.9 million.

•   FEMA Order TN00116N2005T. On September 2, 2005, the DESC
    Budget Division accepted a FEMA request (TN00116N2005T) to supply
    $5 million worth of bulk fuel to support the hurricane relief efforts. The
    DESC Budget Division did not forward this funding document to the


                                 12
           DESC Operations Division, the performing activity, and the funds were
           allowed to expire. The FEMA mission assignment for this funding also
           duplicated the requirements on the blanket mission assignment
           (1604DR-MS-D0D-19), which USNORTHCOM had already provided to
           DESC. Even though the tasking was completed on time under the blanket
           mission assignment, the duplicate tasking resulted in excess FEMA
           reimbursable funding authority of $5 million to DoD.

       •   General Services Administration Orders. Between August 31, 2005,
           and October 26, 2005, FEMA provided reimbursable orders through the
           General Services Administration for meals-ready-to-eat to DSCP valued at
           about $224 million. The $1 billion blanket mission assignment
           (1604DR-MS-DoD-19) that USNORTHCOM provided to DLA included a
           request from FEMA for food for the hurricane relief efforts. However, the
           FM-Katrina and USNORTHCOM, who had accounting and operational
           oversight responsibilities for the DoD relief efforts, were not aware of
           these direct orders. This may have resulted in duplication of efforts and
           excess FEMA reimbursable funding authority to DoD.

    We communicated our audit findings on the DoD billings against canceled
    mission assignments to USNORTHCOM in a telephone conference on
    March 2, 2006. Personnel from FEMA and DFAS participated in the telephone
    conference. All the participants acknowledged the problems existed and agreed
    to investigate and resolve them.


Timeliness of FEMA Billing
    DoD reimbursable billings to FEMA were not always timely. DFAS received and
    processed requests for FEMA reimbursement for the DoD Components. The
    Components were required to maintain documentation to support requests for
    reimbursement. According to USD(C/CFO) guidelines, requests for FEMA
    reimbursement can be made monthly; however, partial or final billing should be
    submitted to FEMA within 90 days after completion or termination of a mission
    assignment. The billings were not timely because some of the Components did
    not know the mission assignments to bill against or did not receive vendor
    documentation that is required when billing FEMA and, therefore, did not submit
    the required documentation to DFAS for billing. For example,

           •   Although USTRANSCOM received taskings to support FEMA,
               officials at USTRANSCOM stated that they did not receive any
               mission assignments from USNORTHCOM to support the tasks
               performed. USTRANSCOM researched the Katrina Website to find
               the mission assignment that closely described their accomplished task
               and, with permission from the Joint Chiefs of Staff or
               USNORTHCOM, billed against that particular mission assignment.
               This process was time consuming and did not ensure timeliness of the
               billings. As of April 13, 2006, USTRANSCOM had not billed about
               $6.5 million for assignments that were completed between
               August 31, 2005, and October 10, 2005, because USNORTHCOM had



                                       13
               yet to identify the mission assignment that USTRANSCOM should
               bill against.

           •   Although USSOCOM received taskings to support FEMA, officials at
               USSOCOM stated that they did not receive any mission assignments
               documents or reimbursable authority from USNORTHCOM.
               USSOCOM researched the Katrina Website to find the mission
               assignment that closely described their accomplished task. This
               process was time consuming and did not ensure timeliness of the
               billings. The Naval Special Warfare Command, a USSOCOM field
               activity, did not bill $28,483 to FEMA for reimbursement until
               129 days after the completion of the mission assignment. Also, as of
               March 6, 2006, USSOCOM Headquarters had yet to bill FEMA for
               $19,515 for travel and telecommunications support completed in
               September 2005 because they have not identified the mission
               assignment to bill against.

           •   As of March 8, 2006, NGA had not billed FEMA for about
               $1.1 million expended for hurricane relief efforts. NGA completed the
               FEMA requested assistance in September and October 2005, but had
               not billed for reimbursement because it had not received invoices from
               vendors, which are required when submitting a bill to FEMA.


Reconciliation of Obligations to FEMA Mission Assignments
    DoD Components could not readily reconcile obligations to FEMA mission
    assignments, and DoD may have excess unobligated reimbursable funding
    authority related to the hurricane relief efforts that DoD needs to inform FEMA to
    de-obligate. These conditions occurred because USNORTHCOM provided the
    FEMA blanket mission assignments and reimbursable funding authority to more
    than one DoD Component and without dollar limitation. For example, the
    Components received and obligated portions of blanket mission assignments (see
    Appendix C). We were able to reconcile the amounts billed to supporting
    documentation and to the blanket mission assignments. However, we were
    unable to determine the DoD Components’ portions of the blanket mission
    assignments that needed to be returned to FEMA because the FM-Katrina and
    USNORTHCOM did not provide each Component with dollar limitations on the
    blanket mission assignments. Without reconciliation of obligations to mission
    assignments, DoD may be unintentionally maintaining reimbursable funding
    authority that needs to be communicated to FEMA for de-obligation.

    USD(C/CFO) should require all DoD Components and DFAS to reconcile
    obligations and collections to all FEMA mission assignments and other funding
    documents to ensure that the Components have completed all FEMA-requested
    missions and to determine the excess reimbursable authority to be returned to
    FEMA. USD(C/CFO) officials indicated that they have requested FEMA to
    de-obligate several million dollars of excess reimbursable funding authority to
    DoD but FEMA has yet to de-obligate the excess funding authority. We did not
    confirm this information with FEMA.



                                        14
Reporting of FEMA Cost
    The FM-Katrina Tracker and the Katrina Website did not provide complete or
    accurate data on FEMA mission assignments to DoD. The September 23, 2005,
    memorandum required DoD Components to submit daily and monthly cost
    reports to DFAS, Denver, which would consolidate and submit the reports to the
    USD(C) (Program/Budget). However, the DoD monthly Hurricane Katrina cost
    reports did not provide accurate data to DoD decision makers.

    Tracking Mission Assignments. The Tracker and Katrina Website maintained a
    listing of FEMA blanket and specific mission assignments to DoD. The Tracker
    also tracked the initial estimates, obligations, expenditures, and reimbursements
    of the blanket and specific mission assignments. However, neither the Tracker
    nor the Website included the direct mission assignments, even though DoD cost
    reports did include data from the direct mission assignments FEMA provided to
    DLA and NGA. Therefore, we were unable to reconcile the total cost report to
    the reimbursable authority FEMA provided to DoD. The Tracker also contained
    inaccurate information. For example, the Tracker reported that the Defense
    Health Program estimated a need for $383,722 and obligated $133,722.
    Personnel from the Defense Health Program stated that they did not receive or
    obligate any Hurricane Katrina relief funds. Personnel also told us that they did
    not perform any FEMA requested tasking related to the hurricane relief efforts.

    Cost Reports. The USD(C/CFO) guidance on reporting costs related to the
    hurricane relief efforts required DoD Components to submit daily and monthly
    reports to DFAS Denver, which consolidated the data and submitted the reports to
    the USD(C/CFO) (Program/Budget). The guidance required each Component to
    report “all costs associated with Hurricane Katrina support effort and validate that
    the reported costs are accurate, supportable and provide a fair representation of
    ongoing activities.” The Components’ monthly reports submitted to DFAS were
    often inaccurate and untimely, or in some cases, not provided at all.
    Consequently, the DFAS Denver reports also were either inaccurate or untimely.
    For example,

    •   In September 2005, DSCP received a tasking for $100,000 from First U.S.
        Army Headquarters for hurricane relief efforts. First U.S. Army gave DSCP a
        military interdepartmental purchase request with its own fund cite for billing
        purposes. DSCP billed First U.S. Army, but not FEMA, for the amount but
        reported the amount as FEMA cost on its September monthly report because
        the tasking was related to the hurricane relief efforts. As a result, DSCP’s
        September report was overstated.

    •   In its September 2005, monthly report, DLA reported $3.7 million as a FEMA
        reimbursable Second Destination Transportation cost and another $16,000 as
        Other Services and Miscellaneous Contracts. The amounts were reported by
        two DLA Subordinate Commands that were reimbursed by DSCP and not
        FEMA. At the same time, DSCP, which received the reimbursable authority
        from FEMA, had also reported the $3.7 million in its September 2005
        monthly report. As a result, DLA’s September 2005 monthly report included
        a duplicate amount of over $3.7 million.



                                         15
    •   On January 19, 2006, DISA officials stated they did not submit the required
        October or November monthly reports to DFAS Denver. Also, the amount on
        the DISA daily report and the DFAS daily report for December 16, 2005, did
        not match. DISA reported a total cost of $23,000, but the DFAS report
        showed DISA did not report any costs.

    •   The DFAS Consolidated DoD Hurricane Katrina FY 2005 Cost Report,
        October 31, 2005, reported the Defense Health Program incurred FEMA
        reimbursable costs of $58,000. However, an official from the Defense Health
        Program office stated that they did not incur or receive any FEMA
        reimbursable funds. The personnel also told us that they did not perform any
        FEMA requested tasking related to the hurricane relief efforts.

    •   DFAS Denver did not submit the October 2005 monthly report to
        USD(C/CFO) until February 4, 2006. The November 2005 monthly report
        was not submitted until April 7, 2006. Also, the December 2005 monthly
        report was not submitted until April 17, 2006.

    The September, October, and November 2005 monthly cost reports were
    inaccurate because the reports included duplicate amounts. In addition, DFAS
    Denver did not provide the October, November, and December reports to DoD
    decision makers in a timely manner. However, we could not determine the
    impact that the untimely and inaccurate reports had on decision makers.


Internal Control for Hurricane Katrina Spending
    Four of the five Components we visited did not prepare an internal control plan as
    required by the USD(C/CFO) memo of September 20, 2005. The USD(C/CFO)
    required the internal controls to ensure that financial and acquisition controls
    were not compromised as DOD responded to hurricane relief efforts and to ensure
    that transactions were valid and authorized and that DoD personnel followed
    acquisition requirements. The internal controls also required “the communication
    of relevant, reliable, and timely information to internal and external individuals.”
    One of the five Components stated that they did not receive the USD(C/CFO)
    instructions to prepare an internal control plan. Two of the five Components
    stated that they followed their own existing internal controls when obligating
    FEMA funds. Even though not all the Components we visited prepared the
    internal control plan or submitted inaccurate and untimely reports of Hurricane
    Katrina costs, financial and acquisition controls were not compromised.

Lessons Learned
    We are providing the following synopsis as lessons learned from our audit as they
    relate to the financial management of the Hurricane Katrina relief efforts. The
    implementation of our recommendations and DoD responses to the lessons
    learned will ensure the proper accounting of DoD obligations and expenditures in
    future DoD disaster assistance.



                                         16
Outdated and Conflicting DoD Regulations. DoD financial management
directives and regulations have not been updated to include current policies on
DoD assistance to civil authorities. For example, the DoD Directive “Military
Support to Civil Authorities,” DoD 3025.1, January 15, 1993, and DoD “Manual
for Civil Emergencies,” DoD 3025.1-M, June 1994, both designate the Secretary
of the Army as the DoD Executive Agent for Military Assistance to Civil
Authorities. However, on March 25, 2003, the Deputy Secretary of Defense
established and appointed the first ASD(HD), and terminated the DoD Executive
Agent’s assignments. The duties and authorities associated with the DoD
Executive Agent were delegated to the ASD(HD). The Deputy Secretary of
Defense requested that the DoD directives, the FMR, and other related issuances
be updated to incorporate the changes; however, these have not been updated.
The DoD directives have also not been updated to incorporate the role and
mission of the USNORTHCOM as the coordinator of DoD support for civil
authorities. USD(C/CFO) issued guidance to establish the FM-Katrina office and
appointed this office as the financial manager of the DoD relief efforts. However,
DoD directives assign that responsibility to the DoD Executive Agent for Military
Assistance to Civil Authorities who was not actively involved in the hurricane
relief efforts.

Operational and Financial Management Oversight. Although
USNORTHCOM had the operational responsibilities for the relief efforts, it did
not have the financial management oversight of the operations. The
USD(C/CFO) assigned the financial management oversight of the reimbursable
funding process for the relief efforts to the FM-Katrina. The USD(C/CFO) also
instructed DoD Components engaged in the relief efforts to submit daily and
monthly cost reports to DFAS Denver, which consolidated and submitted the
reports to the office of the USD(C/CFO). Because operations, financial
management, and financial reporting functions of the relief efforts were separated
from each other, they did not ensure proper controls and accountability. The
financial management oversight should not be fragmented and should be in
compliance with applicable DoD regulations. DoD Directive 3025.1 and DoD
Manual 3025.1-M assign DoD financial management responsibilities for disaster
relief operations and oversight to the DoD Executive Agent, whose mission
includes managing DoD support to civil authorities. We also believe that in order
to provide both operational and financial management oversight during future
natural disasters, the DoD Executive Agent should ensure that USNORTHCOM
staff is augmented by DFAS personnel to ensure both operational and financial
management of the total relief efforts.

Mission Assignment Closeout Procedures. FEMA provided reimbursable
authority to DoD by issuing blanket and specific mission assignments and dollar
limitations. USNORTHCOM provided the blanket mission assignments to DoD
Components without obligation limitation and each Component separately billed
FEMA against these mission assignments. The USD(C/CFO) guidelines required
DoD Components to submit final billings to FEMA for reimbursement within 90
days after completion or termination of a mission assignment. Because the
blanket mission assignments were provided to several DoD Components without
dollar limitation and each component billed FEMA separately, it will be difficult
to determine when FEMA mission assignments were completed. It will also be
time consuming to perform closeout procedures by FEMA mission assignment to


                                    17
ensure that FEMA was billed within 90 days after the completion of the FEMA
mission. DFAS and the DoD Components should provide accounting support to
USNORTHCOM to execute closeout procedures by mission assignment to ensure
that the mission assignments that are completed are billed in a timely manner, and
that close out procedures are performed to identify FEMA excess reimbursable
funding authority to DoD and inform FEMA to de-obligate the excess funding.

Volume of FEMA Mission Assignments. As of March 3, 2006, there were
about 105 mission assignments listed in the Tracker. The Tracker lists only
FEMA blanket and specific mission assignments provided to DoD and does not
include the direct mission assignments and other funding documents that FEMA
provided to DLA and NGA. The FEMA requests on some of these blanket
mission assignments were very specific and others were broad or vague. As a
result, it was difficult to determine if the taskings the Components were billing for
matched the taskings on the FEMA mission assignments. For future natural
disasters, if DoD coordinates with FEMA on mission assignments with specific
tasking, it will enable USD(C/CFO) and the DoD Executive Agent for Military
Assistance to Civil Authorities, in cooperation with USNORTHCOM, to
effectively manage and ensure proper controls of the mission assignments. The
DoD Executive Agent for Military Assistance to Civil Authorities should require
all DoD Components to inform his office anytime the Component receives a
funding document or a mission assignment for any DoD disaster assistance for
which the Executive Agent is responsible.

Communications and Reporting. Communication of financial information
among the various DoD Components involved in the hurricane relief efforts was
not timely or effective to ensure accurate processing of the information. The
Components could not provide an audit trail of sufficient and convincing evidence
to support the decisions they made. Also, even though the FM-Katrina and
USNORTHCOM had the overall responsibility for the DoD relief efforts, other
DoD Components communicated directly with FEMA. For example, one DLA
Subordinate Command directly requested its own funding document from FEMA
after a blanket funding document had been provided to DoD.
For the financial management of major DoD assistance to civil authorities, such
as, Hurricane Katrina relief efforts, individual DoD Components should not
bypass the ASD(HD) or USNORTHCOM in dealing with non-DoD activities.
When ordering supplies and services are allowed under the Economy Act, the
Components should inform the DoD Executive Agent and USNORTHCOM
because they have the overall financial and operational oversight, respectively, of
the DoD relief efforts.

The DoD Executive Agent and USNORTHCOM should ensure effective means
of communicating financial information among DoD Components involved in
disaster relief efforts. The means of communication should provide an audit trail
to ensure uniform compliance and verification of results among the Components.
For example, oral instructions should be followed by written documentation to
provide verifiable evidence. USD(C/CFO) should streamline the reporting
process to make the reported data more meaningful to its users. Also, the cost of
preparing the reports should not exceed the benefits of the reports. The



                                     18
    USD(C/CFO) should compare the costs and benefits of daily and monthly
    reporting, especially when previous reports were inaccurate and untimely.


Action Taken
    On June 1, 2006, the USD(C/CFO) established a Financial Management
    Augmentation Team consisting of members from each Component that provided
    hurricane relief support. The team is to assist USNORTHCOM in testing and
    validating financial management processes and controls developed by
    USNORTHCOM for reimbursable operations for Defense Support for Civil
    Authorities. The team is to train and exercise with USNORTHCOM and, if
    activated, be ready to deploy to execute the financial management procedures.
    The USD(C/CFO) actions occurred after the end of our field work and prior to the
    release of our draft report We commend the USD(C/CFO) for the actions taken.


Recommendations, Management Comments, and Audit
  Response
    Revised Recommendation. As a result of management comments, we revised
    Recommendation 2 to include the word “domestic” to clarify our intentions.

    We recommend that the Under Secretary of Defense (Comptroller)/Chief
    Financial Officer:

           1. Comply with DoD policies and regulations when issuing guidance
    for DoD reimbursable support for assistance provided to Federal
    Departments and agencies, and to State and local governments when DoD
    Components are responding to natural or manmade disasters and, in
    cooperation with the Assistant Secretary of Defense for Homeland Defense
    and the Commander, U.S. Northern Command, allocate reimbursable
    authority to DoD Components performing DoD disaster assistance.
    Management Comments: The Acting Deputy Chief Financial Officer concurred
    with the recommendation and stated that when establishing guidance, the Office
    of the Secretary of Defense (Comptroller/Chief Financial Officer) will ensure that
    superseded directives or sections are clearly stated. The Commander, U.S.
    Northern Command concurred in principle with the recommendation, stating that
    policies and regulations should be reviewed and revised in light of the Deputy
    Secretary of Defense memorandum on the implementation of guidance regarding
    the establishment of the Office of the Assistant Secretary of Defense for
    Homeland Security.

    Audit Response. Comments from the Acting Deputy Chief Financial Officer and
    from the Commander, U.S. Northern Command are responsive and no additional
    comments are required.

          2. Assign financial management responsibilities for future DoD
    domestic disaster assistance to the Assistant Secretary of Defense for


                                        19
Homeland Defense and the Commander, U.S. Northern Command, and
update applicable sections of the DoD Financial Management Regulation to
reflect the changes in the responsibilities.

Management Comments: The Acting Deputy Chief Financial Officer partially
concurred with the recommendation stating that the U.S. Northern Command is
only responsible for assistance provided within the United States. The
Commander, U.S. Northern Command concurred in principle with the
recommendation, stating that during May 2006, USNORTHCOM developed a
concept of operations of financial management process to support civil
authorities. The Commander also stated that the process was approved by the
Under Secretary of Defense (Comptroller/Chief Financial Officer) on May 23,
2006, and will be tested during the 2006 hurricane season and revised, as
required, in the 2006 hurricane season.

Audit Response. Although the Acting Deputy Chief Financial Officer only
partially concurred with the recommendation, we consider the comments
responsive. No additional comments are required. Comments from the
Commander, U.S. Northern Command are responsive and no additional
comments are required.

       3. Require the Defense Finance and Accounting Service, U.S.
Northern Command, and DoD Components executing Federal Emergency
Management Agency mission assignments to perform mission assignment
closeout procedures and, if the closeout procedures discover excess
reimbursable funding authority, advise the Federal Emergency Management
Agency to de-obligate any excess funding authority to DoD.

Management Comments: The Acting Deputy Chief Financial Officer concurred
with the recommendation stating that the Under Secretary of Defense
(Comptroller/Chief Financial Officer) will issue policy to DoD Components
directing the Components to perform closeout of Hurricane Katrina mission
assignments. The Commander, U.S. Northern Command concurred with the
recommendation, stating that since the beginning of March 2006, FEMA has
de-obligated $692.5 million from approximately 15 selected DoD mission
assignments initially worth $929.0 millions dollars.

Audit Response. We consider the Acting Deputy Chief Financial Officer and the
Commander, U.S. Northern Command comments responsive and no additional
comments are required. We did not, however, verify the amounts de-obligated by
FEMA as stated in the comments of the Commander, U.S. Northern Command.

       4. Require all DoD Components to inform and provide financial
information on the use of DoD resources to the DoD Executive Agent for
Military Assistance to Civil Authorities when the Executive Agent has the
responsibility and oversight of the use of DoD resources for DoD disaster
assistance.

Management Comments: The Acting Deputy Chief Financial Officer partially
concurred with the recommendation stating that Defense Support to Civil
Authorities is provided under the Stafford Act. Orders for goods and services for


                                    20
Defense Support to Civil Authorities submitted directly to DoD Components
under the Economy Act are part of normal business operations and do not require
approval of the Secretary of Defense. Therefore, orders received outside the
Stafford Act should not be categorized or tracked as Defense Support to Civil
Authorities. The Commander, U.S. Northern Command concurred with the
recommendation, stating USNORTHCOM will amend the funding paragraph in
its Standing Execute Order on Defense Support of Civil Authorities to ensure that
the Assistant Secretary of Defense for Homeland Security retains complete fiscal
oversight of all reimbursable authority. The new procedures will require DoD
Components to notify the Assistant Secretary of Defense for Homeland Security
and USNORTHCOM anytime they accept and execute reimbursable orders for
disaster assistance which have not been tasked by USNORTHCOM.

Audit Response. Although the Acting Deputy Chief Financial Officer only
partially concurred with the recommendation, we consider the comments
responsive and no additional comments are required. The Acting Deputy Chief
Financial Officer comments stated that orders received outside the scope of the
Stafford Act should not be categorized or tracked as Defense Support to Civil
Authorities. During the Hurricane Katrina relief efforts, DoD tracked orders
received outside the Stafford Act. The Tracker maintained by the FM-Katrina
and the Defense Logistics Agency daily and monthly cost reports to the FM-
Katrina included data on orders received under the Economy Act. Comments
from the Commander, U.S. Northern Command are responsive and no additional
comments are required.




                                   21
Appendix A. Scope and Methodology
   We performed this audit to determine whether DoD obligations and expenditures
   related to the Hurricane Katrina reconstruction effort were timely and efficiently
   executed and in accordance with applicable laws and regulations. This audit was
   required by Public Law 109-062.

   We performed our audit at five DoD Components and their respective field
   activities from October 2005 through April 2006 in accordance with generally
   accepted government auditing standards. We visited and conducted interviews at
   the office of the USD(C/CFO), the Joint Chiefs of Staff, and the Office of the
   Assistant Secretary of the Air Force (Financial Management and Comptroller).
   We performed the audit using a combination of preliminary analytical testing, site
   visits, telephone calls, and data calls.

   We participated in joint meetings with the Government Accountability Office,
   Army Audit Agency, Naval Audit Service, and the Air Force Audit Agency to
   determine the scope of their audits and reviews. Based on decisions at these
   meetings and to avoid duplication of efforts, we limited the scope of our audit to
   those DoD organizations that were not already being audited by these agencies for
   the same purpose. We conducted interviews with officials and operating
   personnel. We reviewed FEMA blanket, specific, and direct mission assignments
   and other documentation to determine the obligation authority of the five DoD
   Components we visited for this audit. We examined their obligations to
   determine if their completed missions were authorized by the FEMA mission
   assignments and were related to the hurricane relief efforts. We reviewed DFAS
   billing documents to determine if the Components were billing FEMA
   reimbursables in a timely manner. We reviewed the Components’
   December 16, 2005, daily report; the September 30 and November 30, 2005,
   monthly reports; and the DFAS FY 2005 Cost Report to ensure that the reports
   were accurate and timely. We also reviewed the Components’ compliance with
   USD(C/CFO) reimbursable billing and internal control instructions. See
   Appendix C for the details of the mission assignments we reviewed. The details
   of our reviews are provided in the paragraphs below.

   Defense Information Systems Agency. DISA provided command and control
   structure to deploy emergency and rapid response teams and provided
   communication support to law enforcement in the areas affected by the hurricane.
   We performed a 100 percent review of DISA obligations and expenditures related
   to hurricane relief efforts. We reviewed funding documents, invoices, delivery
   receipts, travel vouchers, and billing documents that supported each obligation
   associated with FEMA funding authority. We compared the amounts reported in
   the daily and monthly reports to the supporting documentation to ensure that the
   amounts reported were accurate based on the supporting documentation. To
   verify amounts and dates of billings and collections by DISA and to determine the
   timeliness of the billings, we compared the supporting documentation for billings
   and collections provided by the DFAS service center to the supporting
   documentation provided by DISA.




                                       22
Defense Logistics Agency. Three DLA activities, the Defense Supply Center,
Philadelphia (DSCP), the Defense Energy Support Center (DESC), and the
Defense Reutilization and Marketing Service (DRMS), supported the DoD
hurricane relief efforts. We compared the DLA amounts reported in the daily and
monthly reports to DFAS to the field activities’ supporting documentation such as
funding documents, invoices, and billing documents to ensure that the amounts
reported were accurate. We compared the supporting documentation for billings
and collections provided to us by DFAS to the amounts and dates of billings and
collections provided to us by the DLA field activities to determine the accuracy of
the billings. We conducted interviews with operating personnel at DLA, DESC,
and DSCP. We did not visit DRMS because DLA did not tell us about the FEMA
reimbursable funding authority to DRMS until after the end of our field work.
However, we performed other procedures, including a data call from DRMS and
DFAS, to substantiate DRMS funding and reporting.

        Defense Supply Center, Philadelphia. We performed a 100 percent
review of all obligations and expenditures related to the hurricane relief efforts at
DSCP. We requested and reviewed supporting documentation for each of the
obligations related to FEMA requests. We compared the amounts reported in the
daily and monthly reports to DLA to the supporting documentation to ensure that
the amounts reported were accurate based on the supporting documentation. To
verify amounts and dates of billings and collections by DSCP, we compared the
supporting documentation for billings and collections provided by the DFAS
service center to the supporting documentation provided by DSCP.

        Defense Energy Support Center. We judgmentally selected 10 items
from a spreadsheet provided by DESC that included a total of 521 fuel purchases
by FEMA. We also selected 10 items from the universe of delivery receipts for
those 521 fuel purchases for testing. We traced the 10 selected items from the
spreadsheet to the delivery receipts. We then traced the 10 selected items from
the delivery receipts to the spreadsheet containing the 521 fuel purchases. We
compared the amounts in the DESC daily and monthly reports to the supporting
documentation to ensure that the amounts reported were accurate based on the
supporting documentation. To verify amounts and dates of billings and
collections by DESC, we compared the supporting documentation provided by
DFAS to the supporting documentation provided by DESC.

       Defense Reutilization and Marketing Services. We requested and
received funding documents from DRMS and compared the data to similar
information we received from DFAS. Because of time constraints, we were
unable to verify DRMS billings to invoices, delivery receipts, and other
supporting documentation.

National Geospatial-Intelligence Agency. NGA provided geospatial
surveillance support in response to the DoD hurricane relief efforts. We
performed 100 percent review of all obligations and expenditures related to the
relief efforts. We requested and reviewed supporting documentation including
funding documents, invoices, travel vouchers, receipts, and billing documents for
each of the obligations. We compared the amounts reported in the daily and
monthly reports to the supporting documentation to ensure that the amounts
reported were accurate based on the supporting documentation. To verify


                                     23
amounts and dates of billings and collections by NGA we compared the
supporting documentation for billings and collections provided by the DFAS
service center to the supporting documentation provided by NGA. We also
conducted interviews with operating personnel.

United States Special Operations Command. USSOCOM was the reporting
agent for USSOCOM Headquarters and three Component Commands: Air Force
Special Operations Command, United States Army Special Operations Command,
and Naval Special Warfare Command. We requested and reviewed supporting
documentation for each of the obligations and expenditures related to FEMA
mission assignments. To ensure the costs that USSOCOM reported in its daily
and monthly reports and submitted to DFAS were accurate, we compared the
costs to the supporting documentation provided by USSOCOM Headquarters and
the Component Commands. We also conducted interviews with personnel at
USSOCOM Headquarters and the Component Commands.

        USSOCOM Headquarters. We were unable to determine the exact
amount that was obligated and billed against a FEMA mission assignment
because Headquarters has yet to bill FEMA for costs associated with the
hurricane relief efforts. However, we review supporting documentation for the
hurricane relief costs Headquarters reported to DFAS Denver in its daily and
monthly reports. Documents reviewed included travel authorizations and a
telecommunications charge order. We compared the amounts reported in the
daily and monthly reports to DFAS Denver to the supporting documentation to
ensure that the amounts reported were accurate based on the supporting
documentation.

        Air Force Special Operations Command. We performed a 100 percent
review of all obligations and expenditures related to the Hurricane Katrina
reconstruction effort at Air Force Special Operations Command. We requested
and reviewed supporting documentation including a travel summary, flight logs,
overtime records, and billing documents. We compared the amounts reported in
the daily and monthly reports submitted to USSOCOM Headquarters to the
supporting documentation to ensure that the amounts reported were accurate
based on the supporting documentation.

       United States Army Special Operations Command. We performed a
100 percent review of all obligations and expenditures related to the Hurricane
Katrina reconstruction effort at United States Army Special Operations
Command. We requested and reviewed supporting documentation including a
purchase request, travel orders, evacuation orders and billings for reimbursement.
We compared the amounts reported in the daily and monthly reports submitted to
USSOCOM Headquarters to the supporting documentation to ensure that the
amounts reported were accurate based on the supporting documentation.

        Naval Special Warfare Command. We performed a 100 percent review
of all obligations and expenditures related to the Hurricane Katrina reconstruction
effort at the Naval Special Warfare Command. We requested and reviewed
supporting documentation including travel documents invoices and billings. We
compared the amounts reported in the daily and monthly reports submitted to



                                    24
  USSOCOM Headquarters to the supporting documentation to ensure that the
  amounts reported were accurate based on the supporting documentation.

  United States Transportation Command. USTRANSCOM was the receiving
  and reporting agent for Air Mobility Command and the Military Sealift
  Command. Our review at USTRANSCOM was limited to the funding provided
  to the Air Mobility Command. We performed a 100 percent review of obligations
  and expenditures related to the DoD hurricane relief efforts and we reviewed
  funding and billing documents. We compared the amounts reported in the daily
  and monthly reports prepared by USTRANSCOM and submitted to DFAS
  Denver to the supporting documentation provided by Air Mobility Command to
  ensure that the amounts reported were accurate based on the supporting
  documentation. We also compared the supporting documentation for billings and
  collections provided by the Air Mobility Command to documents we received
  from DFAS Denver to ensure the accuracy of the amounts billed and collected.
  We interviewed personnel at USTRANSCOM and the Air Mobility Command.

  Use of Computer-Processed Data. We relied on computer processed data such
  as spreadsheets provided to us by the Components to determine the universe of
  the items we reviewed. We did not evaluate the general and application controls
  for the systems. We compared the data we received to the data in the Tracker and
  other hard copy mission assignments to determine the accuracy and reliability of
  the computer-processed data. Not performing the general and application
  controls of the systems did not affect the results and conclusions of our review.

  Use of Technical Assistance. We did not use any technical assistance in
  conducting our audit.

  Government Accountability Office High Risk Area. The Government
  Accountability Office (GAO) has identified several high-risk areas in DoD. This
  report provides coverage of the Financial Management high-risk area.

Prior Coverage
  During the past 5 years, the GAO has published testimonies and reports and the
  Naval Audit Services has issued a report relating to the Hurricane Katrina relief
  efforts. Unrestricted GAO reports and testimonies can be accessed over the
  Internet at http://www.gao.gov. Unrestricted Navy reports can be accessed at
  http://www.hq.navy.mil/NavalAudit.


GAO
  GAO Report No. GAO-06-643, “Better Plans and Exercises Needed to Guide the
  Military’s Response to Catastrophic Natural Disasters,” May 2006

  GAO Report No. GAO-06-454, “Army Corps of Engineers Contract for
  Mississippi Classrooms,” May 2006



                                      25
DoDIG
   DoD IG Report No. D-2006-109, “Response to Congressional Request on the
   Water Delivery Contract Between the Lipsey Mountain Spring Water
   Company and the United States Army Corps of Engineers,” August 29, 2006


Naval Audit Services
   Naval Audit Service Report No. N2006-0015, “Chartered Cruise Ships,”
   February 16, 2006

   Naval Audit Service Report No. N2006-0047, “Cash Accountability of
   Department of the Navy Disbursing Officers for Hurricane Katrina Relief
   Funds,” September 22, 2006




                                 26
Appendix B. Flow and Process of FEMA Mission
            Assignments

        FEMA

 Issues blanket,
 specific, and direct
 mission assignments
                                DoD Components
                               1. Accept and
                               execute mission                     DFAS
                               assignments                 1. Records obligations,
                                                           expenditures, and
                               2. Record                   disbursements
                               obligations and
      Joint Staff              expenditures and            2. Sends bills to
 1. Accepts mission            forward them to             FEMA and records
 assignments                   DFAS                        collections

 2. Issues Execution           3. Produce and              3. Prepares daily and
 Orders and sends              analyze daily and           monthly cost reports
 mission assignments           monthly reports and
 to USNORTHCOM                 forward them to
                               DFAS




  USNORTHCOM
 1. Accepts mission
 assignments

 2. Issues task orders
 and sends copies of
 mission assignments
 to DoD Components


               Blanket and specific mission assignments

               Direct mission assignments and other funding documents



                                        27
Appendix C. FEMA Mission Assignments and                                             *


            Other Funding Documents
            Reviewed
    Document Number           DISA       DLA       NGA       USSOCOM USTRANSCOM

1609DR-FL-DoD-12                                                                     S

1603DR-LA-NGA-01                                        D

1603DR-LA-DoD-01                                                                     S

1603DR-LA-DoD-06                                                                     S

1603DR-LA-DoD-07                                                                     B

1603DR-LA-DoD-11                B                                 B

1603DR-LA-DoD-14                                                                     B

1603DR-LA-DoD-19                           S

1603DR-LA-DoD-23                           S

1603DR-LA-DoD-27                B                                                    B

1603DR-LA-DoD-29                                                      B              B

1603DR-LA-DoD-31                                                                     B

1603DR-LA-DoD-32                                        B

1603DR-LA-DoD-33                                                                     S

1603DR-LA-DoD-34                B


*
 Mission Assignment is used here to identify funding documents that described a FEMA requested mission
or tasking to DoD with reimbursable authority.
B – Blanket Mission Assignment: a broad mission statement tasked to more than one
    DoD Component by the Joint Staff and USNORTHCOM and processed under the
    DoD mission assignment approval process.
D – Direct Mission Assignment: a mission assignment provided by FEMA directly to
    DoD components.
I – Interagency Agreement and Other Funding Documents
S – Specific Mission Assignment: an assignment tasked to a single DoD Component and
    processed under the DoD mission assignment process.


                                                 28
   Document Number          DISA     DLA        NGA   USSOCOM USTRANSCOM

   7220SU-TX-DoD-22                                                      S

   1604DR-MS-NGA-01                               D

   1604DR-MS-DoD-07                                                      B

   1604DR-MS-DoD-16                    S

   1604DR-MS-DoD-19                    B                                 B

   1604DR-MS-DoD-24                                                      S

   1604DR-MS-DoD-27                                                      B

   1606DR-TX-NGA-01                               D

   3261EM-TX-DoD-14                    D

   3261EM-TX-DoD-18                                                      S

   7220SU-AL-NGA-01                               D

   7220SU-FL-NGA-01                               D

   7220SU-FL-NGA-02                               D

   AN00400N2006T                       I

   AN01948N2005T                       I

   AN01957YN2005T                      I

   HSFEHQ-06-X0102                     I

   1603DR-LA-DoD-35                                                      B

   1603DR-LA-DoD-36                                                      B


B – Blanket Mission Assignment: a broad mission statement tasked to more than one
    DoD Component by the Joint Staff and USNORTHCOM and processed under the
    DoD mission assignment approval process.
D – Direct Mission Assignment: a mission assignment provided by FEMA directly to
    DoD components.
I – Interagency Agreement and Other Funding Documents
S – Specific Mission Assignment: an assignment tasked to a single DoD Component and
    processed under the DoD mission assignment process.




                                           29
      Document Number       DISA     DLA        NGA   USSOCOM USTRANSCOM

   1603DR-LA-DoD-40                                                      S

   WN00250N2006T                       I

   WN01341N2005T                       I

   WN01545N2005T                       I

   WN01546N2005T                       I

   WN01594N2005T                       I

   WN01595N2005T                       I

   TN00116N2005T                       I


B – Blanket Mission Assignment: a broad mission statement tasked to more than one
    DoD Component by the Joint Staff and USNORTHCOM and processed under the
    DoD mission assignment approval process.
D – Direct Mission Assignment: a mission assignment provided by FEMA directly to
    DoD components.
I – Interagency Agreement and Other Funding Documents
S – Specific Mission Assignment: an assignment tasked to a single DoD Component and
    processed under the DoD mission assignment process.




                                           30
Appendix D. Report Distribution
Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Assistant Secretary of Defense for Homeland Defense
Director, Program Analysis and Evaluation

Joint Staff
Director, Joint Staff

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Auditor General, Department of the Army

Department of the Navy
Assistant Secretary of the Navy (Manpower and Reserve Affairs)
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Combatant Commands
Commander, U.S. Northern Command
Commander, U.S. Transportation Command
Commander, U.S. Special Operations Command

Other Defense Organizations
Director, Defense Finance and Accounting Service
Director, Defense Information Systems Agency
Director, Defense Logistics Agency
Director, National Geospital-Intelligency Agency




                                          31
Non-Defense Federal Organization
Office of Management and Budget
Director, Federal Emergency Management Agency

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform




                                        32
Under Secretary of Defense (Comptroller/Chief
Financial Officer) Comments




                      33
     Final Report
      Reference




     Revised




34
35
U.S. Northern Command Comments




                   36
     Final Report
      Reference




     Revised




37
38
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Defense Financial Auditing Service prepared this report. Personnel of the
Department of Defense Office of Inspector General who contributed to the report
are listed below.

Paul J. Granetto
Patricia A. Marsh
Lorin T. Pfeil
Henry Y. Adu
Sharon A. Loftin
Charlisa D. Trahan
Emmanuel A. Appiah
Michael W. Pogue
Richard W. Straw
Sonja J. Davis
Erin S. Hart
